                          WHITE PAPER



Greenfield Costing Methodology:
An Opportunity to Deliver
Transformative Change
January 7, 2014




                    Report Number: RARC-WP-14-005
RARC-WP-14-005                                    Greenfield Costing Methodology: An Opportunity to Deliver Transformative Change




                                                                                                 INTRODUCTION

                 Greenfield Costing Methodology:
                    An Opportunity to Deliver
                     Transformative Change
The U.S. Postal Service Office of Inspector General asked the consulting firm
A.T. Kearney to explore a greenfield approach to the Postal Service’s costing system.
The following report provides the results of A.T. Kearney’s research.




U.S. Postal Service Office of Inspector General                                                                  January 7, 2014
                                                             i
Greenfield Costing
Methodology
An Opportunity to Deliver
Transformative Change

Final report U.S. Postal Service
Office of Inspector General




                                   Greenfield Costing Methodology   1
Introduction
A.T. Kearney prepared this report at the request of the U.S. Postal Service®
Office of Inspector General in response to the USPS® OIG’s request to explore
a conceptual greenfield approach to Postal Service™ costing. We have written
the report specifically for the OIG, while attempting to provide sufficient
background for the broader community interested in Postal Service operations.

Our overarching perspective is that the Postal Service would benefit signifi-
cantly from a greenfield, modern, bottom-up costing and revenue analysis
system. Such a system is a basic requirement for operating effectively in
today’s more competitive and dynamic environment. Moreover, it will further
enhance the organization’s ability to fulfill its mission of “prompt, reliable,
and efficient services.”


The Postal Service will benefit from
bottom-up costing and revenue analysis.
In our six-week study, we assessed the Postal Service’s existing costing systems
in light of changes in the environment in which it competes; we determined the
greenfield costing methodology that would make the most sense for the Postal
Service; and we outlined a potential high-level path forward for the organization.

Overall, we conducted more than two dozen interviews with executives and
key stakeholders in functions across the organization, including finance, sales
and marketing, operations, human resources, and IT. We held site visits at a
destination delivery unit, a regional sorting center (processing and distribution
center), and a major hub (network distribution center). We also reviewed the
Postal Service’s existing costing and revenue system, and past costing
approaches. Finally, we leveraged costing best practices of similar firms
and other postal units.

During our interviews, we heard strong support for developing a new costing
system. The majority of those interviewed believe the Postal Service needs a
modern, bottom-up costing system to make more-informed business decisions,
based on more granular costing. There were some concerns that the organization
would face significant challenges relative to Postal Regulatory Commission (PRC)
adoption and existing gaps in data.


                                                             Greenfield Costing Methodology   1
Executive Summary
The Postal Service seeks to identify a greenfield cost allocation methodology that will directly
support its current and future needs. It is doing so largely because it now operates in a more
dynamic environment and faces greater competition than when the current system was designed.

The current costing system was primarily designed to ensure the Postal Service’s compliance
under cost-of-service regulation. Its main output is a national-level cost report for different
products, which is generated quarterly and published annually. Data for this report comes from
national-level general ledger (GL) accounts, various sampling studies conducted throughout
the year, and other special studies conducted at various times.

In contrast, competitors and companies of similar size in other industries use more versatile,
dynamic costing systems to support a wide variety of decisions. They include decisions that
enable performance management and cost reduction efforts, optimize the product portfolio,
drive investment decisions, make effective pricing decisions, and manage the customer base
for profitability.



Modern, bottom-up costing helps
improve cost performance (reduction)
efforts, pricing and investment decisions,
and optimizes the product portfolio.
A number of changes in the Postal Service’s environment indicate that now is the time for
the organization to develop a similar versatile and dynamic costing system. First, a new
incentive-based regulation has replaced the old cost-of-service regulation. Second, today’s
more competitive and dynamic environment requires current and granular cost data to support
numerous complex product, pricing, and customer decisions. Third, more granular data is
needed to identify and size future cost reduction opportunities, particularly in light of the Postal
Service’s recent financial performance and challenges. Finally, a number of new data sources,
technology, and internal initiatives are removing traditional barriers to developing a new
costing system.

To compete successfully in this environment, it will be essential for the Postal Service to
develop a bottom-up costing and revenue analysis system. With a new system, the Postal
Service could attach granular costs and revenues at the lowest possible level of analysis
(such as for a particular type of product and product flow). It could assign and allocate all or
most costs, while recognizing that different allocation assumptions are used for different
purposes. It could combine granular data to generate cost and revenue information for different
“views” of the business: region, facility, customer, product, and tariff (i.e., sub-products). It could
cost and price every type of product flow that goes through the mail system on a daily basis,
with the ability to generate P&Ls and other reports frequently and on demand throughout the
year. And it could access data sources from local or facility GL accounts, operational and billing
data, and selected time studies.



                                                                           Greenfield Costing Methodology   2
A modern, bottom-up costing system would provide substantial and numerous benefits to the
Postal Service, similar to those enjoyed by companies of comparable size. Key examples include
support for performance management and cost reduction efforts, optimizing the product
portfolio, driving investment decisions, making effective pricing decisions, and managing the
customer base for profitability

As it develops a new costing system, it will be essential for the Postal Service to fully understand
how to structure, design, and implement such a system. For example, due to the likelihood of
gaps existing in the completeness and accuracy of the data needed for allocating cost in the
new system, time studies will be necessary. In addition, existing studies may have to be
leveraged to allocate some costs in the short and medium run.

Implementation will be a multiyear effort requiring cross-organization leadership and a significant
investment in IT, special studies, and overall design. Although the new system will provide data
that is more granular than that used today, not every activity will be measured; as a result, the data
will never be perfect. And since the new system ultimately will be used to communicate with the
PRC, and its buy-in is essential, the PRC should be involved in key phases of the system’s
development.

Estimating the cost of developing a new system is difficult at this stage. Similar systems cost
between $75 million and $125 million—but the payback can be enormous. Once the system is
built, its running costs should be lower than the current system’s annual costs because it will
primarily draw from automated data feeds instead of relying heavily on manual inputs,
sampling, and special studies.

To develop a new system, a two-to-three-year (estimated) phased approach is recommended.
An initial proof-of-concept phase would be conducted to evaluate feasibility and value before
going forward with a full solution. This approach will deliver incremental capabilities that will
enable the Postal Service to realize value as the project progresses and will limit execution risks.

While putting a modern, bottom-up costing system in place will be challenging, doing so will
enable a transformational change in the way the Postal Service operates and communicates.
The way all functions conduct business will be heavily impacted. Executives will have a common
and accepted view of costs and profitability, and they will have granular cost data to enable
application of different cost concepts for different purposes (such as P&L ownership and
accountability).



Current Costing System Overview
The Postal Service’s current costing system was largely designed to ensure the organization’s
compliance under cost-of-service regulation. The system’s main output is a national-level cost
report for different products, which is generated quarterly and published annually. Data for this
report comes from national-level general ledger accounts, various sampling studies conducted
throughout the year, and other special studies conducted at various frequencies.

This system was developed over a period of 40 years and is primarily used for regulatory
pricing requirements. The PRC approves rate changes and workshare discounts, sets the
share of institutional costs that the Postal Service’s competitive products must cover, and
ensures that products are not cross subsidized. The PRC also approves changes to the
underlying costing methodology.


                                                                          Greenfield Costing Methodology   3
Through a financially engineered, multi-step methodology, the current system provides the Postal
Service with the analysis needed to produce national-level costs. The Postal Service allocates
costs through a four-step methodology. First, the GL costs are grouped into 18 cost segments,
each of which has a unique cost allocation methodology. These segments include postmasters,
rural carriers, transportation, general management systems, and others (see figure 1). Second,
these segment costs are allocated to key activities. Third, the activity costs are separated into
attributable costs (those associated with the provision of services or products) and institutional
costs (those not allocated or attributed to specific services or products). And fourth, the activity
costs are allocated to products based on estimated consumption. Each of the cost segments has
a detailed and well-documented allocation methodology.

The Postal Service faces a number of unique challenges compared to companies of similar size.
For example, it operates under a Universal Service Obligation that mandates it to provide uniform
prices for First-Class Mail®, quality of service, and access to services in every part of the country. It
must meet the PRC’s regulatory requirements. The pricing for its market-dominant products is
subject to a Consumer Price Index cap at the class level. It operates within a multi-product


Figure 1
General ledger costs are grouped into 18 cost segments, each with its own cost
allocation methodology


FY12 cost segments

   Cost segments                                                  Total                % Inst
   (18 total)                                                     ($ billion)

    1    Postmasters                                               $2.23               82%

    2    Supervisors and technicians                               $3.28               45%

    3    Clerks and mail handlers (CAG A-J offices)               $14.37               15%

    4    Clerks (CAG K offices)                                    $0.01               46%

    6    City delivery carriers (office activity)                  $3.74               13%

    7    City delivery carriers (street activity)                 $12.09               63%

    8    Vehicle service drivers                                   $0.59               40%

   10    Rural carriers                                            $6.75               65%

   11    Custodial and maintenance services                        $3.20               28%

   12    Motor vehicle service                                     $1.43               72%

   13    Miscellaneous local operations                            $0.45               85%

   14    Transportation                                            $6.63               13%

   15    Building occupancy                                        $1.81               27%

   16    Supplies and services                                     $2.56               50%

   17    Research and development                                  $0.02               99%

   18    Administration and area operations                       $19.43               84%

   19    General management systems                                $0.05               100%

   20    Other accrued expenses (servicewide)                      $2.52               28%


Notes: Cost segments 5 and 9 not used in FY12 ; there are multiple techniques to allocate costs, examples listed here are non-exhaustive
Sources: “Summary Description of USPS Development of Costs by Segments and Components Fiscal Year 2012”, USPS


                                                                                                                  Greenfield Costing Methodology   4
environment with mixed delivery of letters, flats, and parcels, each with a different handling
and transport cost.

Adding to its challenges, the Postal Service has a geographic scope and network unlike
any other entity. For example, it processes more than 160 billion pieces of mail each year
(40 percent of the world’s mail volume) and operates more than 200,000 vehicles, 21 network
distribution centers, hundreds of processing and distribution centers, and nearly 31,000
managed retail offices. Approximately 520,000 career employees are on its payroll.



Industry Best Practice Costing Systems
A number of best practices in designing costing systems are found in companies much like the
Postal Service. In addition, the vast majority of Fortune 500 companies use detailed, bottom-up
costing systems to support key business decisions, such as those relating to:

•	 Operational improvement—by driving performance management and identifying and
   prioritizing cost reduction efforts

•	 Strategic decisions—by driving investment decisions and optimizing the product portfolio

•	 Profitability assessment—by improving pricing decisions and managing customer
   profitability

These best practice dynamic costing systems share five key attributes. Each of them:

•	 Enables “one system of truth” for systematically identifying and allocating costs to activities,
   products, and customers

•	 Leverages dynamic, bottom-up financial, operational, and revenue data, as well as network
   flows and special studies to generate allocation algorithms

•	 Allocates variable and fixed costs to products and customers, enabling the organization to
   select variable or fully distributed costs based on the particular need

•	 Supports customized reporting and links revenue to costing data to improve understanding of
   profitability drivers

•	 Provides multifunctional features for function-specific use (finance, operations, sales and
   marketing, HR, and IT) and enterprise decision making



Changes in the Postal Service’s Environment
Now is the time for the Postal Service to develop a versatile and dynamic costing system such as
the best practice systems used by industry leaders. Following are some of the reasons why:

•	 Current and more granular data is a prerequisite for the Postal Service to compete
   more successfully against the greater competition it now faces, including both direct
   and indirect sophisticated competition across all product categories. Because of this
   competition, the Postal Service is seeing a decline in First-Class Mail volumes and an
   increasing shift toward packages.

•	 The Postal Service now needs a new costing system to help identify and size future cost
   reduction opportunities and to help it regain profitability, which continues to be challenged.

                                                                         Greenfield Costing Methodology   5
•	 The old cost-of-service regulation has been replaced by a new incentive-based regulation that
   encourages additional innovation and cost cutting.

•	 A number of new Postal Service data sources, technology, and internal initiatives are
   removing traditional barriers to developing a new costing system. Today, the organization
   captures, and has available, a vast amount of granular data and employs a significant amount
   of technology to do so. In addition, it has several initiatives underway that focus on collecting
   new and improved data and analyses that would enable a new costing system, including:

 —	Full-service intelligent barcoding           —	Next-generation scanners

 —	Increased operational scanning               —	DPS imaging and machine license plate tracking

 —	Carrier study–city                           —	Informed visibility

 —	Carrier study–rural                          —	“Ship by and for”



Recommendation
It is recommended that the Postal Service develop a bottom-up costing and revenue
analysis system.

A modern bottom-up costing system will enable the Postal Service to:

•	 Attach granular costs and revenues at the lowest possible level of analysis
   (such as for a particular type of product and product flow)

•	 Assign and allocate all or most costs, while recognizing that different cost concepts are
   used for different purposes

•	 Combine granular data to generate cost and revenue information for different “views”
   of the business: region, facility, customer, product, and tariff

•	 Analyze costs and revenues for every type of product flow that transverses the mail system
   on a daily basis, with the ability to generate P&Ls and other reports frequently and on demand
   throughout the year

•	 Access data sources from local or facility GL accounts, operational and billing data, and
   selected time studies

The recommended bottom-up costing system uses a four-step methodology to identify and
allocate costs to products and customers. In these steps, it:

•	 Begins with a general ledger cost segment. The system begins with, and is directly recon-
   ciled with, a general ledger cost segment. It also starts with facility- or activity-specific GLs
   (such as city carrier street costs) to understand these specific costs at a more granular level.
   And it leverages the fine-line GL details (for example, labor codes) to allow partial alignment to
   activities driving them.

•	 Identifies and allocates general ledger costs to key activities. As GL accounts often span
   activities, the system needs a further method to segment costs to operating activities. The
   system will use operational data (employee time card reads or mail scans, for example) and
   special time studies to measure and allocate costs to specific activities, such as stem, area, or
   walk-up time.


                                                                           Greenfield Costing Methodology   6
•	 Segments activities into fixed and variable. The system provides a meaningful distinction
   between fixed costs and variable costs based on multiple methods (for example, regressions,
   GL coding, time/volume studies).

•	 Allocates activity costs to products and customers based on use. Ultimately, the system
   needs to combine all of the individual activity costs into integrated product, customer, and
   facility views. The system will also match revenue to the associated product, customer, and so
   on, to allow comprehensive P&Ls.

One key component of the recommendation is to allocate both variable and fixed costs to
products and customers, enabling the organization to select variable or fully distributed costs
(or other types of costs) based on the particular need. Allocating fixed costs appropriately is
one of the most transformational levers in implementing modern costing systems. The Postal
Service will benefit from being more systematic in understanding and allocating fixed costs to
products and customers. This understanding starts with knowing what factors drive fixed costs,
and asking why these factors exist if they do not support products. All functions should share
the task of pursuing this knowledge, and all should be responsible for fixed cost coverage and
recovery. This understanding drives fixed-cost accountability and avoids the “it is free”
mentality. It also forces consideration of how fixed costs are managed and recovered.



Allocating variable and fixed costs appro-
priately—to products or customers—is
among the most transformational levers
in implementing bottom-up costing
systems.
An additional key component of the recommended system is the ability of the Postal Service to
create variable and fully distributed P&Ls at different levels, such as by product, customer, or
business function. By creating common P&Ls and metrics, the system will align and enable
decisions using common, cross-functional language and metrics (see figure 2 on page 8).

One area of complexity in implementing any costing system is data. As the Postal Service is well
aware of in its current system, perfect data is rarely available and is rarely required or used for
performing accurate bottom-up costing. Therefore, the Postal Service will benefit by adopting the
following mindset when developing a new cost system: Ask what data is available, and how it can
accelerate acquiring the rest of the needed data. One method of addressing some data
complexities is to leverage up-to-date network product flows. This entails understanding in
advance how any given piece of mail should flow through the network (e.g., specific post offices,
sorting/processing facilities, transportation movements) and the major activities (i.e., costs-to-
serve) incurred on it. With up-to-date network product flow data—date, origin, destination,
shape, dimensional weight, and product and tariff type—the Postal Service can calculate accurate
costs. Many networked businesses do this to make the process manageable and avoid having to
recalculate each individual mail item (billions in the Postal Service case) when there are a large
but finite number of mail flows.


                                                                        Greenfield Costing Methodology   7
Figure 2
A modern, bottom-up methodology will enable USPS to create variable and fully distributed
P&Ls at different levels


Sample P&Ls

  Product                        Customer                     Segment                   BU/Geography                 Business function

  • Priority/express             • Individual or              • Customers by            • Business unit or           • Functional or
  • Letter/envelope/               aggregated                   location or               division                     activity views
    package                        customers                    demographic

  • Ground/air
          /

    Priority Mail—                 Customer A                  Large Envelope            Business Unit 1               Transport
    Letter
                                     Customer B                  Medium Envelope           Business Unit 2               IT
      Priority Mail—
      Package                          Customer C                 Small Envelope             Total Business                   Pick-up

        Priority Mail—                 Next Day        $XXX       Customer A     $XXX        Region           $XXX            Next Day        $XXX
        Envelope                       Ground          $XXX       Customer B     $XXX        District         $XXX            Ground          $XXX
        Revenue          $XXX          International   $XXX       Customer C     $XXX        Facilities       $XXX            International   $XXX
        Pick up cost     $XXX          Total Profit    $XXX       Customer D     $XXX        Processes        $XXX            Total Profit    $XXX
        Delivery cost    $XXX                                     Total Profit   $XXX        Functions        $XXX
        Sort             $XXX                                                                Total Cost      $XXX
        Feed             $XXX
        Non-operating $XXX
        Profit          $XXX



                                 Time P&Ls: annual, quarterly, monthly, weekly, daily, custom period



Sources: USPS interviews; A.T. Kearney analysis




To automate this modern costing system, five primary functions integrate into one conceptual
architecture (see figure 3 on page 9):

•	 Dynamic, bottom-up data. The first function includes GL data for each facility’s fine-line and
   billing and revenue data, as well as operations data such as time cards, scans, and volume. It
   consolidates and links bottom-up objective data, which is real time whenever possible. It also
   provides drill-down capabilities.

•	 Rules data. In the second function, the allocation methodology is defined through a set of
   rules. The rules define how the bottom-up data should be allocated and how to segment
   fixed and variable costs. It should be based on a keen understanding of operations activities
   and how they are consumed by different products, variances, and volumes. Where data is
   not available or sufficient, special industrial engineering studies are used to fill the gaps. The
   results of these studies are incorporated into the rules data to allow for periodic updating.

•	 Calculation engine. The third function automates combining the bottom-up data and the
   rules data to calculate the allocations and store the results. This engine, which is centralized
   to allow ongoing refinement, dynamically runs without user intervention based on the rules
   data and reporting requirements.

•	 Reporting. In the fourth function, routine and customer reports are generated on a defined
   frequency (for example, daily or quarterly) or on demand (custom report). These reports
   enable each function to see customized views to help drive business decisions and to allow
   cross-enterprise scorecarding.

                                                                                                           Greenfield Costing Methodology            8
Figure 3
The conceptual architecture for a dynamic, bottom-up costing system typically integrates
five primary functions

                                                                                                                      Preliminary

    Dynamic,                       Rules data                Calculation               Reporting                 Usage/
    bottom-up data                                           engine                                              maintenance

    Real time                     As needed                  Daily                     Daily and custom         Cross-functional

                                                             Calculation               Standard and             Examples:
    GL—fine line                  Time/special studies       engine                    custom reporting         • Strategic decisions
                                                                                       system
                                                                                                                • Profitability
    Billing data                                                                                                  assessment
                                                                                                                • Operational
    Ops scans/data                Rules data                                                                      improvement


    • Consolidates and            • Fills the data gaps      • Runs calculation        • Generates routine      • Is owned and
      links bottom-up,              with industrial            algorithm that:           and customer             maintained by
      objective data                engineering studies       1. Allocates GL            reports                  a cross-functional
    • Uses up-to-date               where data is                costs to activities   • Allows each              team
      data where feasible           insufficient or                                      function to see key    • Aligns functional
                                    unavailable               2. Segments fixed
    • Provides drill-down                                        and variable costs      views to help drive      owners on rules
      capabilities                • Develops rules                                       their business           and definitions and
                                    based on mana-            3. Allots activity         functions                establishes common
                                    gerial accounting            costs to products                                decision making
                                                                 and customers         • Allows for cross-
                                    decisions (e.g., fixed                               enterprise score-        and communication
                                    vs. variable)            • Allows for ongoing        card reviews             criteria
                                                               refinement through
                                                               centralization
Sources: USPS interviews; A.T. Kearney analysis




•	 Usage and maintenance. Ultimately, the system and information are used in daily business
   activities for strategic and investment decisions, customer profitability analysis, pricing and
   new product introduction analyses, and identification of operational improvements. This
   overall system is owned and maintained by a cross-functional team, which agrees on the rules
   and definitions to establish common decision making and communication criteria.



Benefits
A bottom-up costing and revenue analysis system offers substantial and numerous benefits to
the Postal Service since it would enable management to better perform a number of tasks,
including:

•	 Performance management. The system would enable management to benchmark
   facilities and carriers across the entire organization, creating and enforcing efficient
   standards over time.

•	 Cost reduction. The system would create more transparency and accountability for fixed
   costs and management could more easily identify future network optimization changes.

•	 Product portfolio. The system would give management improved confidence in product
   profitability information, better enabling it to decide which products to add, grow, shrink,
   or restructure.


                                                                                                     Greenfield Costing Methodology     9
•	 Investments. The system would provide up-to-date, more granular data at a facility or
   equipment level, giving management greater assurance in its investment decisions and
   enabling it to definitively establish the benefits of new investments.

•	 Pricing. The system’s bottom-up data could be a key element in supporting management’s
   pricing decisions for specific customers and new products.

•	 Customer base. The system could provide individual customer profitability analysis across
   the portfolio, helping management determine corrective pricing, restructuring, or other
   actions necessary to restore profitability.

•	 Regulatory. Management could more easily explain and support various actions using the
   granular data provided by the system.

A modern, bottom-up costing system is transformative to the way the Postal Service operates
and communicates (see figure 4). It would, for example, enable the organization’s leadership to
establish a trust in, and reliance on, underlying costing data and would enable key leadership
decision making with up-to-date, granular data.


Figure 4
A modern, bottom-up costing initiative transforms how USPS operates and communicates




                         Leadership and communication                    Operations and engineering
                         • Establishes common trust in                   • Improves operational and
                           costing data; one system of truth               network decisions; understand
                         • Enables key decision making;                    true cost drivers
                           common language                               • Manages performance on an
                         • Reduces overhead costs                          ongoing basis through benchmarking



                                                     Modern bottom-up
      Sales and marketing                                                                     Finance and accounting
                                                         costing is
      • Drives product portfolio decisions                                                    • Drives profitability decisions
                                                      transformative
      • Understands individual                                                                • Prioritizes investment decisions
        customer profitability                                                                • Clearly explains or supports
      • Allows for more informed                                                                regulatory needs
        pricing decisions



                                              IT and technology
                                              • Establishes a common IT platform
                                              • Links benefits of IT projects to business results




Sources: USPS interviews; A.T. Kearney analysis




With a modern costing system, the Postal Service could make improved pricing decisions and
take more systemic profitability actions. The system will better enable the organization to
implement pricing rules and tools, which would allow it to build customer-specific bottom-up
costs based on the shipping profile (products, volumes, origin, and destination) and determine
optimal prices for new product introductions based on facility-level data. In addition, to better

                                                                                                              Greenfield Costing Methodology 10
manage the customer base, the Postal Service could conduct an individual customer profit-
ability analysis that would include creating individual customer-level P&Ls and identifying
corrective actions as needed for customer pricing below variable cost. Also, the organization
could create strategic partnerships to identify potential collaboration opportunities to jointly
better understand and reduce net costs.

A new costing system would give the Postal Service an improved ability to benchmark and
identify high-value cost reduction activities. For example, it could benchmark facilities to
compare their overall cost and performance, thereby improving the ability to manage and
compare more costs, such as those for equipment, investment, and non-career employees. It
could also benchmark carriers to compare the cost and productivity of individuals, based on
route type, density, delivery types, and volumes. In addition, it could model the “true cost” of
the network. With a more granular understanding of the linkages between productivity,
capacity, and service levels, the Postal Service could more effectively model cost-to-serve
trade-offs. It could support modeling of future network optimization impacts, based on facility-
level costs, transportation costs, product volumes, and labor hours. By improving transparency,
it could clearly define ownership and accountability of fixed costs and determine the cost to
insource and outsource activities.



A modern, bottom-up costing system will
provide Postal Service executives with a
common and accepted view of costs
and profitability.
In addition, the Postal Service could link mail flow activities across and within the network for
each piece of mail. It could identify, for example, the way a package should flow through the
network across the country, including the types of transportation and facilities used and even
how it travels through a specific facility. It could provide this information for each specific day of
the week, taking into account seasonal variations in demand.

Ultimately, using a modern, bottom-up costing system would enable Postal Service executives
to have a common and accepted view of costs and profitability, allowing the organization to
further streamline strategic and tactical decision making.



Potential Path Forward—Overview
Although it will bring about a transformational change felt throughout the organization,
developing a robust bottom-up costing system will be a challenging and significant endeavor
for the Postal Service. Essential to the effort’s success is cross-functional ownership that
includes motivated, engaged executive sponsors and cross-functional executive support at
the highest levels.

Furthermore, the effort is best undertaken with a recommended two-to-three-year phased
approach that starts with an initial proof-of-concept phase to evaluate its feasibility and value
before going forward with a full solution. This approach limits execution risks.

                                                                          Greenfield Costing Methodology 11
Although it is difficult at this stage to estimate the cost of developing a new costing and revenue
analysis system, similar systems cost between $75 million and $125 million. The payback,
however, should be huge. Once the system is built, its running costs should be lower than the
current system’s annual costs because it will primarily draw from automated data feeds rather
than rely on manual inputs, sampling, and special issues.

Since a new system ultimately will be used to communicate with the PRC, and its buy-in is
critical, the PRC should be involved in key phases of the system’s development. Both the new
and old systems may have to be run concurrently during an evaluation and transition period,
pending the PRC’s buy-in of the new system.

To ensure a successful path forward, the Postal Service should employ a few guiding principles
for structuring, designing, and implementing a modern, bottom-up costing and revenue
analysis system:

•	 Establish executive, cross-                  •	 Don’t shoot for perfection
   functional support
                                                •	 Drive change management
•	 Make the system a high priority
                                                •	 Shoot for early wins
•	 Assign the best people to create a
                                                •	 Integrate the system with day-to-day
   cross-functional team
                                                   business decisions


Conclusion
As this report shows, the Postal Service would achieve a transformational benefit from developing
a modern, bottom-up costing and revenue analysis system. Now is the opportune time for this
system to be developed, since a number of changes in the environment point to its development.

A modern, bottom-up system will generate significant benefits for the Postal Service, including
better strategic planning and business decisions, improved profitability assessment, greater
operational efficiency, and lower costs. The payback should be enormous. Equally important, it
will be transformational to the way the organization operates and communicates—increasing its
ability to compete successfully and profitably in today’s dynamic environment and making it
better able to serve the postal expectations and requirements of both large and small
customers throughout the United States.



Authors

            Laurent Guerard, partner, Chicago                     John Anderson,
            laurent.guerard@atkearney.com                         partner, Washington, D.C.
                                                                  john.anderson@atkearney.com



            Randy Garber,
            partner, Washington, D.C.                             Jeff Sextone, principal, Atlanta
            randy.garber@atkearney.com                            jeffrey.sexstone@atkearney.com




                                                                            Greenfield Costing Methodology 12
A.T. Kearney is a global team of forward-thinking partners that delivers immediate
impact and growing advantage for its clients. We are passionate problem solvers
who excel in collaborating across borders to co-create and realize elegantly simple,
practical, and sustainable results. Since 1926, we have been trusted advisors on the
most mission-critical issues to the world’s leading organizations across all major
industries and service sectors. A.T. Kearney has 58 offices located in major business
centers across 40 countries.


Americas                         Atlanta               Detroit                 São Paulo
                                 Bogotá                Houston                 Toronto
                                 Calgary               Mexico City             Washington, D.C.
                                 Chicago               New York
                                 Dallas                San Francisco

Asia Pacific                     Bangkok               Melbourne               Singapore
                                 Beijing               Mumbai                  Sydney
                                 Hong Kong             New Delhi               Tokyo
                                 Jakarta               Seoul
                                 Kuala Lumpur          Shanghai

Europe                           Amsterdam             Istanbul                Oslo
                                 Berlin                Kiev                    Paris
                                 Brussels              Lisbon                  Prague
                                 Bucharest             Ljubljana               Rome
                                 Budapest              London                  Stockholm
                                 Copenhagen            Madrid                  Stuttgart
                                 Düsseldorf            Milan                   Vienna
                                 Frankfurt             Moscow                  Warsaw
                                 Helsinki              Munich                  Zurich

Middle East                      Abu Dhabi             Johannesburg            Riyadh
and Africa                       Dubai                 Manama



For more information, permission to reprint or translate this work, and all other correspondence,
please email: insight@atkearney.com.

A.T. Kearney Korea LLC is a separate and
independent legal entity operating under
the A.T. Kearney name in Korea.
© 2013, A.T. Kearney, Inc. All rights reserved.




The signature of our namesake and founder, Andrew Thomas Kearney, on the cover of this
document represents our pledge to live the values he instilled in our firm and uphold his
commitment to ensuring “essential rightness” in all that we do.
RARC-WP-14-005                                        Greenfield Costing Methodology: An Opportunity to Deliver Transformative Change




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                                      January 7, 2014
